<html>
<title> - LIVING WITH DISABILITIES IN THE UNITED STATES: A SNAPSHOT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





       LIVING WITH DISABILITIES IN THE UNITED STATES: A SNAPSHOT

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2004

                               __________

                           Serial No. 108-242

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-397                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2004....................................     1
Statement of:
    Justesen, Troy, Acting Assistant Secretary, Office of Special 
      Education and Rehabilitation Services, U.S. Department of 
      Education; and Donald A. Young, M.D., Deputy Assistant 
      Secretary, Office of Health Policy, U.S. Department of 
      Health and Human Services..................................    20
    Langevin, Hon. James, a Representative in Congress from the 
      State of Rhode Island......................................    13
    Reich, Alan A., president, National Organization on 
      Disability; Robert David Hall, actor, CSI: Crime Scene 
      Investigation, Double Amputee; Peter Blanck, Charles M. and 
      Marion Kierscht professor of law, director, law, health 
      policy & disability center, University of Iowa College of 
      Law; and John Register, manager, Paralympic Academy, U.S. 
      Paralympics, U.S. Olympic Committee........................    61
Letters, statements, etc., submitted for the record by:
    Blanck, Peter, Charles M. and Marion Kierscht professor of 
      law, director, law, health policy & disability center, 
      University of Iowa College of Law, prepared statement of...   105
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    55
    Hall, Robert David, actor, CSI: Crime Scene Investigation, 
      Double Amputee, prepared statement of......................    97
    Justesen, Troy, Acting Assistant Secretary, Office of Special 
      Education and Rehabilitation Services, U.S. Department of 
      Education, prepared statement of...........................    24
    Langevin, Hon. James, a Representative in Congress from the 
      State of Rhode Island, prepared statement of...............    16
    Register, John,manager, Paralympic Academy, U.S. Paralympics, 
      U.S. Olympic Committee, prepared statement of..............    90
    Reich, Alan A., president, National Organization on 
      Disability, prepared statement of..........................    64
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    10
    Young, Donald A., M.D., Deputy Assistant Secretary, Office of 
      Health Policy, U.S. Department of Health and Human 
      Services, prepared statement of............................    34

 
       LIVING WITH DISABILITIES IN THE UNITED STATES: A SNAPSHOT

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Watson, and Cummings.
    Staff present: Mark Walker, staff director; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Richard 
Butcher, minority counsel; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Mr. Burton. Good morning. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order.
    I ask unanimous consent that all witnesses' and Members' 
written opening statements be included in the record. Without 
objection, so ordered.
    I want to thank everybody for being here. I apologize for 
our tardiness, but it has been a pretty busy day; and we may 
get some votes during the hearing, and if we do, we will have 
to briefly adjourn and come back.
    I also ask that all articles, exhibits and extraneous and 
tabular materials referred to be included in the record. 
Without objection, so ordered.
    In the event of other Members attending the hearing, I ask 
unanimous consent that they be permitted to serve as a member 
of the subcommittee for today's hearing. Without objection, so 
ordered.
    The subcommittee is convening today to examine the quality 
of life experienced by persons with disabilities in the United 
States. In addition, the subcommittee is going to discuss the 
ways in which the Federal Government and nongovernmental 
organizations are working to expand the participation and 
contributions of this population of Americans.
    A disability is defined as a physical or mental impairment 
that substantially limits one or more life activities of an 
individual. According to the U.S. Census Bureau, there are over 
49 million persons in the United States living with some form 
of disability.
    Unfortunately, the rate of disability in our country is 
staggering and a majority of this underserved population does 
not enjoy the quality of life that many of us take for granted 
every day.
    The U.S. Government has taken many actions over the years 
in order to better accommodate the population of disabled 
Americans. The Rehabilitation Act of 1973, which is Public Law 
93-112, was the first civil rights act with regard to 
disability. This legislation represented the first step toward 
more sensitivity and accessibility for persons with 
disabilities, and established a roll for the Federal Government 
to provide vocational rehabilitation for disabled Americans.
    After several years of researching the best solutions on 
disability policy in the United States, in 1990, Congress 
passed and the President signed into law the Americans with 
Disabilities Act, which is Public Law 101-336, which 
promulgated the first antidiscrimination guidelines on 
disability in the United States. This law prohibits 
discrimination in the hiring and continued employment of 
disabled persons in the workplace and provides that ``no 
individual with a disability shall be excluded from 
participation and denied the benefits of or subjected to 
discrimination by a public entity.'' The act also dictates that 
no person shall be discriminated against the enjoyment of any 
place of public accommodation based on a disability.
    The Honorable James R. Langevin, the Congressman from Rhode 
Island, is with us today. He was rendered paralyzed after an 
accident occurred while attending a Boy Scout event when he was 
16 years of age. Since that time, the Congressman has worked 
diligently in the Rhode Island State Assembly, as the Secretary 
of State of Rhode Island, and now as a Representative of the 
Rhode Island Second Congressional District, to sponsor and 
support a variety of health and disability legislation and 
other efforts.
    I did not know you were Secretary of State.
    Mr. Langevin. Yes, sir.
    Mr. Burton. Is that right?
    Mr. Langevin. For 6 years.
    Mr. Burton. Son of a gun.
    In addition to proposing and supporting various health care 
initiatives, the Congressman founded and currently serves as a 
cochair of the Bipartisan Disabilities Caucus in the Congress, 
and he is to be congratulated for his efforts in that area. The 
subcommittee has the distinct honor and privilege to have 
Congressman Langevin testify this afternoon about his numerous 
activities with regard to disability policy, as well as to give 
his personal experiences as an individual living with a 
disability in the United States.
    The Federal Government has not only ensured that 
discrimination based upon disability is unlawful in the United 
States, but also has worked toward providing programs to assist 
with health care and educational opportunities for the disabled 
population. To explain these most important initiatives, Troy 
Justensen, Acting Assistant Secretary with the Office of 
Special Education and Rehabilitative Services at the Department 
of Education is here to speak on the educational programs made 
available to students with disabilities.
    In addition, the subcommittee will be receiving testimony 
from the Honorable Don Young, Deputy Assistant Secretary for 
the Office on Health Policy at the Department of Health and 
Human Services. Mr. Young will testify on the various health 
care programs and services that the agency has implemented to 
assist the Nation's disabled population.
    To further expound upon disability policy in the United 
States, Dr. Peter Blanck, Director of the Law, Health Policy & 
Disability Center at the University of Iowa College of Law will 
testify today on the status of disabilities in the country.
    There is no question that persons with disabilities have to 
overcome physical or mental obstacles every day, and many times 
both, but there are some individuals who have conquered their 
impediment and gone on to achieve exceptional success and 
greatness. For example, even though a car accident rendered 
Robert David Hall a double amputee in 1978, he continued his 
career as an entertainer and went on to act professionally in 
numerous television and movies roles, most notably as a current 
star of the popular TV show, CSI, Crime Scene Investigation, 
where he has played the role of Dr. Al Robbins for several 
seasons. As a national figure, Mr. Hall has used his celebrity 
status to further the cause of disability awareness around the 
country, serving on various boards promoting disability 
support, including the National Organization on Disability. The 
subcommittee is delighted to have Mr. Hall here speaking on his 
involvement with the disability community.
    While physical disabilities may be perceived as limitations 
preventing individuals from participating in athletic 
competition, more than 5,000 individuals with disabilities 
around the world participate in the Paralympics, a division of 
the Olympic Committee reserved for persons living with a 
disability. The Paralympic features 21 sports, 18 of which are 
also contested in the Olympics. To gain a better understanding 
of this competition, the subcommittee will receive testimony 
from Mr. John Register, manager of the Paralympic Academy for 
the U.S. Olympic Committee and a Paralympic Gold Medal winner.
    Although there have been many advances in technology and 
disability policy in the United States, the quality of life of 
these individuals has been shown through many surveys to be 
less than nondisabled individuals. Recently, the National 
Organization on Disability commissioned a Harris poll survey 
regarding the life-styles of both individuals living with and 
without disabilities. The subcommittee has invited the 
President of NOD, Mr. Alan Reich, to testify on the results of 
this poll and potential initiatives that may lead to a better 
quality of life for individuals with disabilities.
    I want to thank all of our witnesses for being here today 
and to speak on this very important matter and I look forward 
to their testimony.
    Our first panel is the Congressman.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.001
    
    [GRAPHIC] [TIFF OMITTED] T7397.002
    
    [GRAPHIC] [TIFF OMITTED] T7397.003
    
    [GRAPHIC] [TIFF OMITTED] T7397.004
    
    Mr. Burton. Ms. Watson just arrived and, Ms. Watson, since 
you have arrived, do you have an opening statement you would 
like to make before we introduce our colleague.
    Ms. Watson. Thank you, Mr. Chairman. But there is some 
important business I have to get out of the way first, and that 
is to say, ``Happy birthday,'' to Richard Butcher on my staff.
    Mr. Burton. My birthday was 2 days ago, and I did not hear 
you call me and wish me, ``Happy birthday.'' When you reach 29, 
like me, it really gets tough.
    Ms. Watson. Let me say to you, Mr. Chair, ``Happy birthday 
for being 29 again and again.''
    I want to commend you for leading the subcommittee on this 
very important, important issue. I would also like to thank my 
colleagues and the Honorable James Langevin from Rhode Island 
for his testimony that he is about to give when I finish. Let 
me go through this real quickly.
    The disabled in America are sometimes overlooked in the 
land where everyone supposedly has a voice. Americans with 
disabilities are Americans just the same, and according to the 
Constitution of the United States, the disabled are afforded 
the right to life, liberty, and the pursuit of happiness 
exactly the same as any other citizen.
    Whether or not the disability is from a birth defect or an 
amputation or an accident or blindness or deafness, the 
disabled should have a voice, even those disabled that cannot 
speak and communicate their ideas through sign language, 
pictures, captions and in other ways.
    Mr. Chairman, I do appreciate the opportunity we have to 
hear about living with a disability here in the United States 
of America, and I also extend a very special thanks to you and 
to those who are assisting our communications today. I 
understand that there are numerous challenges to life for every 
human being and a disability adds even more.
    As a long-time public servant, I believe that it takes a 
very strong individual to overcome many of the obstacles in our 
society. I also believe that good public policy works to ensure 
the well-being of those with all these challenges. It is a 
difficult task, but it is something that we have to strive for.
    Congress has stepped up to the plate and acknowledged the 
need for attention to the disabled. Unacceptably, Federal 
action in some areas has let the disabled community down. And I 
look forward to listening to the results of the Harris Poll 
survey that was commissioned by the National Organization on 
Disability. The poll is one instrument of the disabled 
constituency to speak out, and Congress must listen.
    One area that I would like to highlight is education. As a 
former educator and a former school board member, disabled 
Americans are very close to my heart. Education can equip an 
individual with or without a disability to engage in society. 
The President and Congress are failing special needs children 
by breaking the promises we made when we enacted IDEA in 1975. 
When Congress passed the Education for All Handicapped Children 
Act, later known as IDEA, we explicitly promised to provide 40 
percent of the excess costs of special education; 29 years 
later we have yet to keep that promise. The Obey resolution, 
coincidentally being debated on the House floor today, puts us 
on the path to fully funding IDEA over a 6-year period. It 
would provide for a $2.2 billion increase in special education 
funding. And this is $1.2 billion over the President's request.
    In perspective, President Bush has requested a $1 billion 
increase in special education each year since he took office. 
At this rate of increase, we will have difficulty reaching full 
funding for IDEA. In education, we cannot afford to leave any 
child behind, especially those with disabilities.
    So, in closing, Mr. Chairman, I would like to acknowledge 
the two very strong representatives of the disabled community 
that are here to testify today. The first is Mr. Robert David 
Hall, who is currently the character Dr. Al Robbins on CSI, 
that is, the Crime Scene Investigation series. And Mr. Hall is 
a double amputee that has successfully transferred his acting 
style to the award-winning CSI television drama. Mr. Hall's car 
accident in 1978 did not stop his desire for an acting career. 
I commend his dedication in furthering awareness on the 
disabled around the country. Mr. Hall also sits on several 
boards that promote support for the disabled, including the 
National Organization on Disability.
    The second gentleman is Mr. John Register. And I had the 
pleasure of meeting Mr. Register at the Congressional Olympic 
dinner this year. Mr. Register is a model for all Americans and 
a testimony in perseverance. While training for the 1996 
Olympics, Mr. Register severed an artery in his left leg. The 
resulting medical action was amputation below the left hip. 
Also an ambassador to the disabled community, Mr. Register 
trained for and won a medal in the Sydney Paralympic games in 
2000, and we were there.
    Mr. Chairman, I am very, very proud to be part of your 
committee, particularly with the subject matter today. These 
people in front of us offer us hope. Thank you. I yield back.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.005
    
    [GRAPHIC] [TIFF OMITTED] T7397.006
    
    [GRAPHIC] [TIFF OMITTED] T7397.007
    
    Mr. Burton. Thank you for your kind remarks, and you can 
sing ``Happy Birthday'' to me later.
    You might notice that we are the first committee to have 
closed captioning for the hearing impaired. And I think that is 
a giant step forward for this committee, and I hope the rest of 
the committees in the Congress will follow suit.
    Representative Langevin, I appreciate very much your being 
here. We appreciate the contributions you are making, not only 
here, but in other areas, and we welcome your testimony.

STATEMENT OF HON. JAMES LANGEVIN, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Thank you, Mr. Chairman. It is an honor to be 
here. Before I give my prepared remarks, let me just add 
something even more important and take the opportunity to wish 
you a happy birthday.
    I want to thank Chairman Burton, Ranking Member Watson and 
the entire Subcommittee on Human Rights and Wellness for 
convening today's hearings on Americans living with 
disabilities in the United States.
    I commend you for your dedication to improving the lives of 
Americans with disabilities, and I am certainly grateful for 
the opportunity to participate in today's hearing.
    Mr. Chairman, as you mentioned in your opening remarks, at 
the age of 16, I served as a Boy Scout Explorer police cadet. I 
went through the program in my hometown of Warwick, RI, but on 
August 22, 1980, my dream of a career in law enforcement was 
shattered. I stood in a locker room with a fellow cadet 
watching two members of police SWAT team examine a handgun, 
which they believed was not loaded. That gun accidentally 
discharged, launching a bullet that ricocheted off a metal 
locker and into my neck severing my spinal cord and leaving me 
paralyzed.
    At first, I was convinced that gun and this wheelchair had 
ruined my life. But I learned in time that a badge and a gun 
are not the only ways to make a difference or serve your 
community. I have been fortunate to be able fulfill my dreams 
of public service by serving as a delegate to the Rhode Island 
Constitutional Convention, a member of the State's General 
Assembly, the Rhode Island Secretary of State, and now 
representing Rhode Island's Second Congressional District in 
the U.S. House of Representatives.
    The 24 years I have spent living with a disability in 
America have been very challenging, but also very fulfilling, 
both personally and professionally. These years have also seen 
great change. Discrimination in employment back then was legal; 
buildings were not designed with accessibility in mind; and 
accommodations of disability viewed really as charity, not as a 
civil right.
    Looking back in my early years in a wheelchair, my college 
application process comes to mind. I was not able to go to my 
first choice school, because, quite simply, it just was not 
accessible. It was nearly 10 years before the passage of the 
Americans with Disabilities Act, and there was little that I 
could do about that. Fortunately for me, accommodations at my 
backup school, Rhode Island College, were better, and I was 
able to receive a quality education and the opportunity to put 
some of my new dreams to the test.
    However, not all Americans have been so fortunate. Many 
Americans with disabilities today face a lack of access to 
health care and assistive technology, barriers to employment 
and a society that remains less inclusive than it could be. I 
want to discuss some of the most critical issues that I see 
facing Americans with disabilities today, and those are health 
care and employment.
    People with disabilities are at risk in the health care 
system because of their wide-ranging health needs, their 
relatively heavy use of services and typically low incomes. The 
leading source of health coverage for people with disabilities 
is Medicaid. And while some States have established Medicaid 
buy-in programs for people with disabilities, too many people 
with disabilities are still barred from the workplace for fear 
of losing their eligibility for this program.
    Meanwhile, in the face of rising costs and budget 
shortfalls, States are aiming to slow growing in program 
spending by curtailing benefits, increasing cost-sharing 
requirements, and restricting eligibility.
    Mr. Chairman, I can personally attest that living with a 
disability is very expensive. Higher copayments and 
requirements for a person with a disability can simply be 
catastrophic.
    Finally, Medicaid has yet to break away from the 
institutional bias. Only about 25 percent of Medicaid long-term 
care funds go to services and supports in home and community 
settings. Only three States spend more than 50 percent of their 
Medicaid long-term care funds on home- and community-based 
care. Individuals that are eligible for nursing home services 
should be able to choose between that and community attendant 
services and supports.
    Congress has the power to level the playing field and give 
Medicaid beneficiaries equal access to community-based services 
and supports. We simply cannot achieve the goal of implementing 
the Supreme Court's Olmstead decision until we remove this 
institutional bias.
    Several spending proposals in Congress would help to begin 
to rebalance and expand the long-term care system and provide 
quality supports and services in the community. These include 
MiCASSA, which would require States to include community-based 
personal assistance services in their Medicaid programs, and 
the Money Follows the Person Act and the NFI Medicaid 
Demonstrations Act, which provide demonstration grants to 
States to help individuals transition from institutions to 
community settings.
    Moving to the topic of employment, I want to address the 
barriers that keep Americans with disabilities from the 
workplace. The unemployment rate in the disabilities community 
is a staggering 70 percent. Every day I hear stories from 
people who want to work, but are kept from doing so by barriers 
that we can easily pull together to overcome, primarily the 
concern over health benefits and the lack of transportation.
    The cost of direct government and private payments to 
support people with disabilities of employment age without jobs 
is estimated to be approximately $232 billion annually; another 
$195 billion in earnings and taxes are lost each year because 
Americans with disabilities are unemployed.
    Programs like a Ticket-to-Work, designed to promote work by 
providing SSI and DI recipients with a ticket to purchase 
rehabilitation from State VR agencies and other providers, 
begin to address these issues, but significant implementation 
challenges remain. Meanwhile, the 108th Congress has failed to 
agree on reauthorizing legislation through the Workforce 
Investment Act that would adequately provide displaced workers 
with the information, training and resources necessary to 
obtain or regain employment through the design and 
implementation of the one-stop delivery system.
    Now, I am concerned that without increased investment and 
support for State vocational rehabilitation programs, much of 
the progress we have made will all be reversed, and more 
Americans will be relegated to a life spent in isolation, 
instead of sitting in a classroom, a board room or here with me 
in the U.S. Congress.
    Mr. Chairman I want to thank you for the opportunity to 
raise some of the pressing issues facing Americans with 
disabilities. With the bipartisan passage of the Improving 
Access to Assistive Technology for Individuals with 
Disabilities Act earlier this month, we have seen commitment 
from members of both political parties to expand opportunities 
for people with disabilities in America. And I am certainly 
confident that we can make a great difference together for 
millions of American by continuing to work together in this 
fashion.
    Thank you again for the opportunity to testify. It is an 
honor to be here.
    [The prepared statement of Hon. James Langevin follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.008
    
    [GRAPHIC] [TIFF OMITTED] T7397.009
    
    Mr. Burton. Thank you, Congressman.
    There is not supposed to be any discrimination against 
people with disabilities in employment, but we obviously know 
that there are. And I imagine a lot of those discriminations 
are silent in nature. They are not responsible.
    I do not know if this has ever been talked about, and I do 
not know if it is something doable or not, but it sounds to me 
that it is something that is doable, and that is tax incentives 
for business and industry to hire the disabled, an incentive 
for them to go the extra mile to make sure the large number of 
people who have disabilities do have gainful employment. Have 
you ever looked into that?
    Mr. Langevin. Sure, and I think that there may be some. And 
I do not want to speak off the cuff about that, but certainly 
tax incentives would be helpful and there is definitely a 
payoff return on the investment. For every dollar that is spent 
on putting someone to work as opposed to having the recipient 
on a social program, there is a benefit begun in terms of wages 
that are earned and also in taxes that are paid. So there is 
truly demonstrated research that says investment in putting 
people to work is far better and a bigger payoff than there is 
in the cost of actually supporting the program.
    Mr. Burton. You cited some very large figures, in the 
hundreds of billions of dollars, I believe, in your testimony, 
that is being lost because we have so many people who have 
disabilities who are not employed. We passed legislation, I 
think in the last 15, 20 years, that helped train the 
unemployable in the area of giving them skills so they could go 
out into the workplace. I think the Job Training Partnership 
Act and a couple of others were incentives for industry to hire 
people and train them, and I think there were tax incentives to 
do that.
    I do not know--maybe Ms. Watson or somebody else knows; I 
cannot think of anything like that has been done to encourage 
the private sector to hire people or train people with 
disabilities so they could be gainfully employed. If there is 
not something like that, I would be very happy to work with you 
to draft legislation that I think would probably be looked upon 
favorably by the entire Congress, that might help in this area. 
It seems like to me that giving a tax incentive to the private 
sector to train and hire people with disabilities would be a 
real plus and a winner for everybody.
    So if that is not the case, I would like to work with you 
and others to see if we cannot come up with something like 
that.
    Mr. Langevin. I look forward to working with you on that, 
Mr. Chairman.
    Ms. Watson. May I respond? Public Law 97-142 required, I 
know, school districts to provide accessibility and gave grants 
to school districts; and in a way, that relates to your 
question, tax incentives. They gave grants, and so maybe there 
is some way we can combine that. If they are able to adjust 
their facilities to make them accessible, then they could go 
after a grant and receive it. Also they would get a tax credit 
and they could be combined.
    Maybe somebody could speak on that, who is an expert in 
that area. But I do remember that particular part.
    Mr. Burton. Most businessmen and -women respond to tax 
incentives that save them money and make them money. And to get 
a talented employee and at the same time get a tax break for 
it, I think, like I said, would be a winner for everybody.
    Let me just ask one or two more questions quickly.
    Mr. Langevin. Mr. Chairman, if I could offer something else 
too that would be helpful.
    Back when the Americans with Disabilities Act was passed, 
there was money within DOJ to do a public education program, 
especially with employers about what is required under the ADA 
and what it really means. It has been about 12 years since ADA 
was passed, and I think that one of the barriers to people 
hiring with disabilities is the fear about what ADA requires. I 
think if there were money that was spent in helping to educate 
employers about how the ADA works and it is not something that 
requires an onerous burden, that would help eliminate some of 
the fear of what it means to hire people--someone with a 
disability, that would go a long way toward encouraging 
employers to bring people with disabilities into the work 
force.
    Mr. Burton. Well, maybe we could look at that at the same 
time we are looking at the incentive approach.
    Are there other any other programs, other than what we have 
just been talking about, that you have been working on, or with 
other groups to push legislatively to get passed, that would 
help in this area?
    Mr. Langevin. Well, as cochairman of the Bipartisan 
Disability Caucus, we are trying to draw attention to programs 
that are working. The caucus, for example, has hosted events 
highlighting the contribution of a range of discretionary 
programs from the Developmental Disability Act to the Help 
America Vote Act. We have also done a great deal of outreach to 
educate members on the programs that have come up for 
reauthorization in the last few years, such as IDEA and the 
Workforce Investment Act.
    Also, the programs that I mentioned earlier, programs that 
I found to be beneficial to people with disabilities, today the 
State assistive technology programs funded by the Assistive 
Technology Act certainly played a tremendous role in promoting 
awareness of and access to devices that allow individuals with 
disabilities to contribute to society, and also vocational 
rehabilitation programs, which are also administered through 
the States, are an important tool in placing people with 
disabilities into the work force.
    Mr. Burton. Ms. Watson, do you have any questions?
    Ms. Watson. Mr. Langevin, I would just like to have you let 
us know what other kind of programs, based on barriers that are 
still in the way for the disabled to find jobs--what kind of 
programs do you think we ought to develop here in Congress that 
might be effective?
    So think about it, get back to us. I know that the tax 
incentive would work, but you might want to be more specific in 
terms of the barriers that you see still existing.
    Mr. Langevin. Clearly, the health care and the 
transportation barriers are the biggest ones to overcome, and I 
think the greatest benefit would be to bring people with 
disabilities into the work force. If people with disabilities 
were not afraid at any time to have to worry about losing their 
health care benefits, that would be a tremendous incentive to 
get people off of social programs and get them out into the 
workplace.
    But even that needs to be coupled with programs that 
provide transportation for people. It is no good to be able to 
get an application in if you are not able to get back and forth 
to work. So more assistance for public transportation programs 
would be of great benefit. I think those are the two biggest 
and most important tangible examples that I can give you.
    Ms. Watson. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Congressman. We really appreciate 
your hard work, and we will look forward to working with you in 
the future to try to solve some of these problems.
    Mr. Langevin. I look forward to that, Mr. Chairman. Thank 
you for the opportunity.
    Mr. Burton. Thank you.
    Our next panel consists of the Honorable Troy Justesen. He 
is the Acting Assistant Secretary for the Office of Special 
Education and Rehabilitation Services at the Department of 
Education; and the Honorable Don Young, Deputy Assistant 
Secretary for the Office of Health Policy for the Department of 
Health and Human Services.
    If you gentlemen would come forward, we would appreciate 
it.
    Now we do not swear in Congressmen because we understand 
all Congressmen are above reproach, so we let them get away 
with this, but gentlemen, we will swear you in.
    So will you raise your right hands, please?
    [Witnesses sworn.]
    Mr. Burton. We will start with you, Mr. Justesen. Do you 
have an opening statement?
    Mr. Justesen. I do, Congressman.

STATEMENTS OF TROY JUSTESEN, ACTING ASSISTANT SECRETARY, OFFICE 
    OF SPECIAL EDUCATION AND REHABILITATION SERVICES, U.S. 
  DEPARTMENT OF EDUCATION; AND DONALD A. YOUNG, M.D., DEPUTY 
 ASSISTANT SECRETARY, OFFICE OF HEALTH POLICY, U.S. DEPARTMENT 
                  OF HEALTH AND HUMAN SERVICES

    Mr. Justesen. First of all, thank you for having me here 
again before you today. It is a pleasure to be here. And, 
Congresswoman, it is a pleasure to see you again.
    I am the Acting Deputy Assistant Secretary for the Office 
of Special Education and Rehabilitative Services within the 
Department of Education. So much of what you discussed with 
Congressman Langevin is directly related to the work that I 
have the privilege and responsibility for implementing in the 
Department of Education.
    I want to frame my discussion with you today around the 
President's New Freedom Initiative and how the New Freedom 
Initiative is our guiding principle for providing services to 
people with disabilities from birth through the life span, 
because that is the challenge within the Office of Special 
Education and Rehabilitation Services in the Department.
    The New Freedom Initiative is the President's goal and 
vision for expanding and building upon the successes of 
Congress' success in special education, rehabilitation services 
and basic civil rights, like the Americans with Disabilities 
Act and section 504 of the Rehabilitation Act of 1973. But we 
want to move and buildupon that success and that foundation.
    The New Freedom Initiative [NFI], has four basic 
components, and I will outline those components for you and 
give you some examples about the work we are doing to improve 
services for children, youth and adults with disabilities 
throughout the country.
    Now, NFI is basically divided into four main pillars or 
components, as I call them. The first is increasing access to 
assistive technologies, universally designed technologies for 
individuals with disabilities.
    The second is expanding educational opportunities for 
children, youth and adults with disabilities.
    The third is integrating these individuals, Americans with 
disabilities, successfully into the work force.
    And the fourth and most encompassing component of the New 
Freedom Initiative is to make sure the community, community 
life and accessibility is fully available to all people with 
disabilities. So the fourth component is mainly the broad theme 
which the other three components fall under.
    Now, with respect to increasing access to assistive 
technologies, universally designed technologies, the Department 
administers the programs of assistive technology in our 
National Institute on Disability Rehabilitation Research. We do 
what Congressman Langevin alluded to, which is we implement the 
Assistive Technology Act of 1998.
    That act provides opportunities for State systems to change 
programs and opportunities for direct loan programs for 
individuals with disabilities to obtain the assistive 
technology devices and services they need in order to live 
independently in the communities of their choice. We are 
working very closely through our partners at the State level on 
making these funds available to provide low-interest and long-
term loans of affordability, so that individuals with 
disabilities can purchase any device or service they need to 
live independently.
    That is a major achievement and one in which the 
President's New Freedom Initiative builds upon, and we are 
working very closely with our partners at HHS and the other 
partners in the Federal agencies because the New Freedom 
Initiative is the President's challenge for agencies to look 
beyond the boundaries of their own programs and services and 
look at ways in which we can work in partnership at the Federal 
level and be a role model for State and local entities to 
improve services for people with disabilities.
    The President has signed an Executive memorandum, and this 
is just one example of how we move technology forward for 
people with disabilities. And his EM, his Executive memorandum, 
challenged all of the Federal agencies to work together and 
develop a cross-agency Web site that was available to all 
Americans, including Americans with disabilities, to access a 
single site location, a single one-stop center whereby 
individuals can go to that Web site and access information 
directly about any of the variety of services that people with 
disabilities and their family members would need to access, 
including Social Security programs, information about job 
opportunities and job accommodations, about accessible 
transportation and accessible housing, which continues to be a 
major challenge for people with disabilities. Emergency 
preparedness has become increasingly more important in recent 
years, and the opportunities for expanding educational programs 
and services for people with disabilities is particularly 
emphasized in the Individuals With Disabilities Education Act 
[IDEA], which Congresswoman Watson alluded to.
    Under the President's administration, grants and programs 
have received an increase of more than $3.7 billion in annual 
funding, and the President has requested an additional billion 
dollars in funding for the IDEA in fiscal year 2005. We are 
working very closely to also provide opportunities and mesh 
very well the President's No Child Left Behind Act in 
elementary and secondary ed with the IDEA, which is special 
education programs and services, making sure that children with 
disabilities are fully integrated and provided the educational 
services and benefits they need to participate in the regular 
classroom environment with their peers without disabilities, 
which is a very important aspect.
    Now, integrating Americans with disabilities into the work 
force is a profound challenge. The Department of Education is 
working with its sister partners at Labor, HHS, HUD and all of 
the other Federal agencies to increase the employment 
opportunities for people with disabilities, because people with 
disabilities are underemployed at higher rates than any other 
class of people in America. The research shows it is between 50 
and 70 percent. And we know from our basic research that has 
been conducted with our partners in both the public and private 
sector, including the National Organization on Disability, that 
these rates consist primarily because of attitudinal barriers 
toward the abilities of people with disabilities.
    The Rehabilitation Services Administration in the 
Department of Education is focused primarily on helping people 
with disabilities obtain the skills, knowledge and experience 
they need to fully integrate into every aspect of society, 
including employment. Last year, the Rehabilitation Services 
Administration, with its State partners, was successful in 
finding fully integrated, gainful employment for more than 
223,000 people last year.
    This year, we will serve in special education at least 6.5 
million young people with disabilities in this country. All of 
this serves toward our greatest implementation, which is making 
sure that communities of individuals with disabilities have 
accessibility to the programs and services they need to live 
independent, fully productive lives in the communities of their 
choice.
    Transportation, as the Congresswoman mentioned to you, is 
one of the most key components of accessibility and access, 
including employment and basic enjoyment for people with 
disabilities.
    In February of this year, the President challenged, through 
an Executive order, all of his Federal agencies to work 
together to figure out what the Federal barriers are that 
currently exist in the systems and programs posing impeded 
access to basic integrated transportation services for people 
with disabilities. All of the Federal agencies under the New 
Freedom Initiative today are working through plans to make 
Federal funding and remove Federal barriers in transportation 
services for people with disabilities. This is a model that we 
have at the Federal level to show how well State and local 
entities can provide programs and services for their children, 
youth and adults with disabilities.
    The NFI is designed to realize a plan for equal access and 
full participation in American society for individuals with 
disabilities, and that plan is for now and also for the future. 
We at the Department of Education look forward to working with 
our sister agencies and working even more closely on 
collaboration so that we remove all of the barriers that are 
posed for people with disabilities in American society.
    Thank you, Congressman.
    Mr. Burton. Thank you, Secretary Justesen. We appreciate 
you being with us today.
    [The prepared statement of Mr. Justesen follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.010
    
    [GRAPHIC] [TIFF OMITTED] T7397.011
    
    [GRAPHIC] [TIFF OMITTED] T7397.012
    
    [GRAPHIC] [TIFF OMITTED] T7397.013
    
    [GRAPHIC] [TIFF OMITTED] T7397.014
    
    [GRAPHIC] [TIFF OMITTED] T7397.015
    
    [GRAPHIC] [TIFF OMITTED] T7397.016
    
    [GRAPHIC] [TIFF OMITTED] T7397.017
    
    Mr. Burton. Mr. Young.
    Mr. Young. Good afternoon, Mr. Chairman, members of 
subcommittee. I am pleased to be here today to discuss the 
Department of Health and Human Services programs for people 
with disabilities.
    This is an issue that President Bush took on early and 
vigorously. In February 2001, he announced the New Freedom 
Initiative, building on the landmark Americans with 
Disabilities Act.
    HHS plays a major role in addressing the New Freedom 
Initiative. Our programs reflect a fundamental commitment to 
promote independence and quality of life, to enable people with 
disabilities to receive services in the most integrated 
settings, and so to support people with disabilities in their 
efforts to work.
    Americans with disabilities are part of the population 
served by all HHS programs; however, I will highlight here the 
larger HHS programs focused on serving people with 
disabilities.
    Dependable, high-quality health care is a critical need. 
Approximately 8 million people with disabilities qualify for 
Medicaid on the basis of the SSI financial and disability 
criteria. Medicare also provides health coverage for 
individuals who receive Social Security disability insurance. 
Approximately 6.4 million people under age 65 receive Medicare 
on the basis of disability.
    The Medicaid program is by far the largest public payer of 
long-term support for people with disabilities. In 2003 
Medicaid, paid $45 billion for nursing home services, $11 
billion for institutional settings for people with mental 
retardation and $28 billion for community support.
    Medicaid law requires States to offer nursing home care, 
but it allows States the option to provide community-based 
services. In 1990, Medicaid spending for community care 
represented 14 percent of Medicaid long-term care spending; in 
2003, it was 33 percent. Over the past 3 years HHS has awarded 
approximately $121 million in grants to States to influence and 
accelerate the shift. The Real Choice Systems Change grant 
program funds States and other eligible entities to make 
systems changes that enable individuals with disabilities to 
live in the most integrated settings possible, to exercise 
meaningful choices about their lives, and to obtain quality 
services. We will be awarding another $31 million this year.
    One of the most promising developments is consumer-directed 
models of care. The best known model of Medicaid consumer-
directed care is the cash and counseling program, which is 
designed and supported by HHS and the Robert Wood Johnson 
Foundation. Under this program and others like it, people who 
use Medicaid personal assistance are offered individual budgets 
rather than specific services. Satisfaction and quality are 
high, and there is less reliance on nursing home services. HHS 
promotes the use of these models through Medicaid Independence 
Plus Waivers and the LIFE Accounts Initiative included in the 
President's 2005 budget.
    It has been estimated that the value of the free care 
provided by informal caregivers exceeds $257 billion annually. 
HHS supports caregivers with initiatives such as the 
Administration on Aging's National Family Caregivers Support 
Program, which provided $159 million this year in grants for 
information, counseling, training, respite care and 
supplemental services to over 500,000 caregivers.
    When formal services are needed, it is critical that we 
have in place a committed work force to provide high-quality 
services. We address the issue with $12 million in States to 
improve the recruitment, training, support and retention of 
workers with an emphasis on the provision of a health care 
benefit for direct service workers.
    An important component of the President's New Freedom 
Initiative is doing everything possible to help people with 
disabilities to work. We work closely with our partners to 
effectively advance the goals of the Ticket-to-Work and Work 
Incentives Improvement Act of 1999, which encourages people 
with disabilities to work, but to work without fear of losing 
eligibility under Medicare, Medicaid and similar health 
benefits. To date, we have awarded $57 million in Medicaid 
infrastructure grants to 42 States and the District of Columbia 
to help people with disabilities find and keep work without 
losing their health benefits.
    The Administration on Developmental Disabilities provided 
over $140 million in grants last year to assist the Nation's 
nearly 4 million people with developmental disabilities. 
Support for young children with disabilities and their family 
members is also important. The Maternal and Child Health 
program provides funds to States to improve the health of 
children with special health care needs and their families. In 
2004, approximately $200 million of this Federal investment is 
being allocated to community-based care for the estimated 18 
million children with special health needs.
    The HHS Office on Disability, created in 2002, coordinates 
Department initiatives and supports the ``I Can Do It--You Can 
Do It'' physical fitness program, providing mentors for 
children and youth with disabilities, as well as other programs 
for people with disabilities.
    Many of the programs I have talked about today had their 
roots decades ago. Although we continue to improve and 
modernize them as individual needs and values change, working 
with our State and local partners and, most importantly, 
working with people with disabilities and their families, we 
have come a long way. But as President Bush has stated, there 
is much more to do.
    We at HHS are firmly committed to meeting the President's 
challenge, and I am happy to answer any questions.
    [The prepared statement of Mr. Young follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.018
    
    [GRAPHIC] [TIFF OMITTED] T7397.019
    
    [GRAPHIC] [TIFF OMITTED] T7397.020
    
    [GRAPHIC] [TIFF OMITTED] T7397.021
    
    [GRAPHIC] [TIFF OMITTED] T7397.022
    
    [GRAPHIC] [TIFF OMITTED] T7397.023
    
    [GRAPHIC] [TIFF OMITTED] T7397.024
    
    [GRAPHIC] [TIFF OMITTED] T7397.025
    
    [GRAPHIC] [TIFF OMITTED] T7397.026
    
    [GRAPHIC] [TIFF OMITTED] T7397.027
    
    [GRAPHIC] [TIFF OMITTED] T7397.028
    
    [GRAPHIC] [TIFF OMITTED] T7397.029
    
    [GRAPHIC] [TIFF OMITTED] T7397.030
    
    [GRAPHIC] [TIFF OMITTED] T7397.031
    
    [GRAPHIC] [TIFF OMITTED] T7397.032
    
    [GRAPHIC] [TIFF OMITTED] T7397.033
    
    [GRAPHIC] [TIFF OMITTED] T7397.034
    
    [GRAPHIC] [TIFF OMITTED] T7397.035
    
    [GRAPHIC] [TIFF OMITTED] T7397.036
    
    Mr. Burton. Thank you, Mr. Young. I understand that Mr. 
Cummings is your Congressman, and I did not know if he had any 
comments he would like to make.
    Mr. Cummings. I want to thank you very much, Mr. Chairman.
    Mr. Young, I want to welcome you and it is good to see you. 
Mr. Chairman, if I may do my opening statement very briefly, is 
that OK?
    Mr. Burton. Sure.
    Mr. Cummings. Mr. Chairman, I want to thank you for holding 
this important hearing which will offer us greater insight into 
the status of our disabled citizens, as well as present us with 
an opportunity to evaluate the efficacy of disability laws that 
affect these individuals.
    Over 89 million people living in the United States have 
some form of mental or physical disability. Yet, of these 89 
million people, an overwhelming number of disabled persons are 
still not enjoying equal protection under the law.
    While I acknowledge the progress engendered by legislation 
such as the Rehabilitation Act of 1973 and the Americans with 
Disabilities Act of 1990, I still believe that more can be and 
must be accomplished. Men like Robert David Hall and my 
colleague, the Honorable James R. Langevin of Rhode Island, 
both of whom became physically disabled after tragic accidents 
and who will testify before us today, are inspirations to all 
Americans, as they are fighting the good fight for health care 
initiatives and legislation that will change the way we deal 
with disability in these United States.
    This fight is no doubt a difficult one. Recent surveys 
indicate many Americans feel that they are not winning it. 
Although the Rehabilitation Act, ADA, the Individuals With 
Disabilities Education Act, IDEA, and other legislation were 
enacted to provide our disabled citizens with legal protection 
to prohibit discrimination and denial of benefits, as well as 
guaranteed access to any public place and equal education, they 
are still in many instances losing the battle.
    In the 2004 Harris survey of ADA, 64 percent of the people 
surveyed said the ADA has made no difference in their lives, 
compared to 58 percent in the year 2000. This is a drop in the 
level of confidence in the law specifically drafted to protect 
and support this Nation's disabled persons. Even more 
disconcerting is that costs were reported as the main reason 
why disabled persons did not pursue the needed health care, 
technologies and devices that could be helpful to them as they 
integrate into mainstream society. Congress must make certain 
this trend is reversed.
    The Federal Government and nongovernmental organizations 
must work together to expand the participation and 
contributions of the disabled population by putting into place 
effective processes and legislation that afford them greater 
access and better representation in American society.
    Finally, Mr. Chairman, the true disability is not the 
physical or mental challenge that many of these citizens face, 
but rather the Nation's inability to provide proper protection 
that ensures the highest quality of life for all.
    I look forward to hearing from our witnesses and I would 
like to especially recognize one of my constituents who I am 
extremely proud of, Dr. Don Young, who is the Deputy Assistant 
Secretary of Planning and Evaluation of the Department of 
Health and Human Services.
    And I thank you, Dr. Young, for your leadership and all 
that you do to enhance people's lives every day.
    Mr. Chairman, I thank you for your courtesy and I would 
yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T7397.037

[GRAPHIC] [TIFF OMITTED] T7397.038

[GRAPHIC] [TIFF OMITTED] T7397.039

    Mr. Burton. I thank you Congressman Cummings.
    You heard the discussion that we had with our colleague who 
was the first panelist. Have any of the agencies of government, 
to your knowledge, given any consideration to tax incentives, 
like we were talking about, for the private sector to hire and 
train those with disabilities who are unemployed?
    I mean, I understand the programs that you alluded to, both 
of you, that are very beneficial and the health problems that 
are connected, the health care cost problems with Medicare and 
Medicaid, but if we can get more of these people gainfully 
employed through the private sector, we might find that some of 
them will get coverage from their employers that would help 
take care of some of the benefits that are necessary.
    So have any of the agencies, Health and Human Services or 
the Department of Education, given any thought to suggesting 
legislation that we create tax incentives for the private 
sector?
    Mr. Young. I am not aware that we have. It would not 
necessarily be a question that would be addressed to HHS. I 
certainly agree though that finding some way to assure that 
people who want to work are given the help they need so that 
they can find the job they need and go to work.
    Mr. Justesen. Congressman, directly to answer your 
question, it is an issue of some intellectual debate among some 
of the agencies, particularly the Department of Labor's newly 
created Office of Disability Employment Policy, that--some of 
my colleagues I believe are in the audience here, and there has 
been some discussion with the Rehab Services Administration of 
the Department of Education about what it is that we can do to 
address the existing barriers--those being, among other things, 
tax incentives for specifically hiring people with 
disabilities.
    It is still under debate, but I do want to point out that 
the Americans with Disabilities Act, under Titles I and II--
Title I being employment, II, State and local government 
programs and services--both cover employment aspects, and Title 
I, specifically with respect to the private sector of 
employment, does provide tax incentives, both deductions and 
credits, for making the buildings and facilities and job 
accommodations more affordable to the private business sector.
    There is a cap on those amounts of deduction/credit 
depending on what it is that is used to provide either a more 
accessible work environment or providing specific job 
accommodations for those individuals with disabilities who 
would be employed.
    But I think your question is most specifically with respect 
to hiring people with disabilities regardless of their need for 
accessible accommodations or job accommodations. And that is an 
issue that a number of us have discussed in terms of how we can 
formulate proposals. And we are at the very initial stages of 
being able to do that and would need a little bit more 
discussion among the agencies.
    Mr. Burton. Let me just say that I think that kind of a 
program, probably short term and long term, would pay for 
itself. If you give a tax incentive to get somebody who is 
unemployed the skills necessary to perform a task and they 
become a taxpayer instead of a tax recipient, then I think it 
has to have a positive impact both on the individual and the 
company and on the government.
    The tax credit that you are giving would take money out of 
the Treasury in the short run, but if the employee starts 
paying taxes, you are going to get it back in the long run. And 
it just seems to me that would be one of the things that we 
ought to take a look at.
    I understand that--did you say Title II of the Americans 
with Disabilities Act talked about giving incentives for 
putting in facilities that will make it accessible for 
Americans with disabilities? But that does not solve the 
problem of the training that might be necessary for them to do 
a job, and that might be something that we can add as an 
adjunct to the Americans with Disabilities Act that would be 
very favorably received by the private sector as well as the 
government.
    And toward that end, I wish you might take a hard look at 
it and maybe work with us and our colleagues who just 
testified, along with Ms. Watson and myself, to see if we could 
come up with a legislative proposal that would do just that.
    Mr. Justesen. Well, I think we look in order to doing that. 
If I may, the Rehabilitation Services Administration is making 
a great deal of investments in directly providing training and 
gainful employment preparation for individuals with 
disabilities, and that is a State and Federal partnership. And 
that is a strong foundation for us to build on what you are 
suggesting.
    Mr. Burton. Well, I understand, but that is a government-
subsidized program. And what I am saying is if you give a tax 
incentive to the private sector, what you are doing is you are 
giving them a break to train these people. It isn't costing the 
government anything other than a tax deduction, and the 
government is going to get that back when these people become 
taxpayers and gainfully employed. So rather than have another 
government program that we create that just spends money, I 
would rather do it just the opposite. And that is why I would 
like for to you to look at this as an additional approach.
    Ms. Watson.
    Ms. Watson. I just wanted to query one thing that you said. 
The Federal and State partnership works through what? State 
government through the Department of Education training? How is 
it facilitated?
    Mr. Justesen. Question, Congresswoman. With respect to 
vocational rehabilitation services?
    Ms. Watson. The training of the individual.
    Mr. Justesen. The rehabilitation services of the Department 
of Education is a State and Federal partnership. It has a very 
long history, over 80 years.
    Ms. Watson. Yes, I know, but it goes through the State 
educational system?
    Mr. Justesen. Well, it goes through the State vocational 
rehabilitation agency. Sometimes they are within the State 
Departments of Education, other times State Departments of 
Labor or Health and Human Services, depending on the State.
    Ms. Watson. They have vocational programs, but you are 
talking about vocational programs through which they train the 
disabled?
    Mr. Justesen. They are--yes.
    Ms. Watson. For vocational----
    Mr. Justesen. For people with disabilities for vocational 
rehabilitation services. And this is a longtime partnership 
between Federal and State entities. Each State has chosen which 
State office is the lead agency in a sense in a given State. 
Some States it is mostly Departments of Labor or Education. But 
there are others HHS or whatever appropriate State agency has 
chosen to administer the rehabilitation vocational program.
    Ms. Watson. I think in my State, California--and I'm going 
to have my staff look it up--it is through the Department of 
Rehab. And the Department of Rehab has these programs. I think 
we need to do an assessment to see if they are really reaching 
out to the broad spectrum of the disabled; mentally disabled as 
well.
    Mr. Justesen. Well, people with psychiatric disabilities 
are the largest category of unemployed people who have 
disabilities in America. And it is a challenge for us, and we 
look forward to continuing to help State VR agencies be more 
efficient and more effective than even they are today. And that 
is a priority of ours in the Department of Education.
    Ms. Watson. I kind of like the proposal that the Chair is 
putting out there, because I was just reading something about 
our budget here, and what departments were cut? Department of 
Education, the Department of Rehabilitation, and so on.
    So there are many, many people who won't get served. If 
there is a tax incentive, then maybe the private sector can 
take over, because these are kind of like entitlement programs. 
And I think that we need to try other ways of funding, because 
they are the first ones that get cut.
    Mr. Justesen. Well, Congresswoman, I look forward to taking 
back to Secretary Paige your challenge to us to provide 
technical assistance to the committee to improve the employment 
rates for people like myself with disabilities.
    Ms. Watson. Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much. I don't have any further 
questions, but I do appreciate your testimony. It is good to 
have you back, and nice to have you with us. Mr. Young and I'm 
sure Mr. Cummings appreciates you being here as well.
    Our next panel consists of Mr. Alan Reich, he is president 
of the National Organization on Disability; Mr. Robert David 
Hall, he is the actor on CSI, Crime Scene Investigation, which 
is a very popular TV show, as everybody knows; Dr. Peter 
Blanck, is a professor of law at the University of Iowa College 
of Law, he is the director of the Law, Health Policy and 
Disability Center there; and Mr. John Register, he is the 
manager of the Paralympic Academy, U.S. Paralympics, U.S. 
Olympic Committee. Appreciate you all being here.
    Please raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. I think we will just go right down the line 
there, I think we will start from the right and go to the left. 
Mr. Reich. And if you could, since we have four panelists, keep 
your statements as close to 5 minutes as possible so we can 
have question and answer with you.

 STATEMENTS OF ALAN A. REICH, PRESIDENT, NATIONAL ORGANIZATION 
   ON DISABILITY; ROBERT DAVID HALL, ACTOR, CSI: CRIME SCENE 
  INVESTIGATION, DOUBLE AMPUTEE; PETER BLANCK, CHARLES M. AND 
MARION KIERSCHT PROFESSOR OF LAW, DIRECTOR, LAW, HEALTH POLICY 
  & DISABILITY CENTER, UNIVERSITY OF IOWA COLLEGE OF LAW; AND 
 JOHN REGISTER, MANAGER, PARALYMPIC ACADEMY, U.S. PARALYMPICS, 
                     U.S. OLYMPIC COMMITTEE

    Mr. Reich. Thank you, Mr. Chairman. And thank you to your 
committee on human rights and wellness for providing this 
important focus on our release today of the fourth NOD/Harris 
Survey of Americans with Disabilities.
    In the last 12 years, we have been doing surveys to 
understand the status of people with disabilities in our 
country and how we are doing in comparison with counterparts 
without disabilities, and the picture that emerges today is one 
of continuing concern and continuing disparity between the 
situation of our 54 million Americans with disabilities and 
other Americans.
    I am Alan Reich, president of the National Organization on 
Disability. I founded NOD in 1982, having joined the disability 
community two decades earlier when I broke my neck in a diving 
accident. People with disabilities want to participate and 
contribute to society, to work, support our families, pay 
taxes, contribute to the economy, and share in America's 
blessings and opportunities, just like everyone else. To us 
this means closing the gaps in the levels of participation 
between people with and without disabilities in employment, 
education, community life, voting, religious worship, 
transportation, housing, health care. Closing these gaps is 
America's disability agenda.
    In the mid-1980's, while the Congress was preparing the 
Americans with Disabilities Act, we began surveying to identify 
and quantify these gaps and to report to the Nation on these 
critical issues. We have commissioned the Louis Harris 
organization now actually four times to conduct national 
surveys to measure and report on these gaps. These surveys have 
helped the disability community, legislators, officials of all 
levels, the media, the business community and other Americans 
understand the problems and opportunities for action.
    So who are we, the 54 million citizens with disabilities? 
After all, you are taking a snapshot today. And how are we 
doing compared to other Americans?
    This report identifies and defines the challenges our 
minority faces in terms of the gaps in major life areas. The 
survey results show that in 2004, these gaps are wide. We 
remain pervasively disadvantaged in 10 key indicator areas.
    In employment, only a third of people with disabilities of 
working age are employed full or part time, compared to more 
than three-quarters of those without disabilities; 35 percent 
versus 78 percent.
    In education, 21 percent of people with disabilities have 
received less than a high school education, compared with only 
11 percent of those without disabilities.
    Socializing. People with disabilities socialize less 
frequently with close friends, relatives or neighbors; 79 
percent versus 89 percent.
    Income. People with disabilities are far more likely to 
have a household income of $15,000 or less; 26 percent versus 9 
percent. Think of it, a household income of $15,000 a year.
    Religious worship, 49 percent of people with disabilities 
go to a place of worship at least once a month compared with 57 
percent of those without disabilities.
    And entertainment. People with disabilities are less likely 
to go out to a restaurant, for example, at least twice a month; 
66 percent versus 73 percent.
    Political participation. This was based on our 2000 survey. 
People with disabilities are less likely to be registered to 
vote; 62 percent versus 78 percent.
    Transportation. People with disabilities are twice as 
likely as those without disabilities to consider inadequate 
transportation a problem; 31 percent versus 13 percent.
    Health care, also egregious. People with disabilities are 
more than twice as likely to have gone without needed medical 
care at least once in the past year; 18 percent versus 7 
percent.
    Life satisfaction. Not surprisingly, in light of these 
other gaps, people with disabilities are much less likely to 
say they are very satisfied with life in general; 34 percent 
versus 61 percent.
    And I might add another that we have added since we did 
this survey 4 years ago, and that is emergency preparedness. 
Shortly after September 11 we surveyed people with disabilities 
and found that our population is less prepared, more concerned 
and more anxious than the nondisabled.
    Overall, this is a sorry picture. America can do better. We 
must do better. There are glimmerings of hope. Over the past 18 
years, several gaps have closed, notably employment, education, 
income, eating out at a restaurant. In the past 4 years, 
discrimination toward people with disabilities in the workplace 
has decreased markedly, undoubtedly as a result of the 
Americans with Disabilities Act. However, there is still a long 
way to go before we can say that people with disabilities have 
the same opportunities to contribute to and participate in 
American life than other citizens do.
    Closing these gaps as reported in today's Harris survey is 
our goal, and it must be America's goal, too. I respectfully 
request, Mr. Chairman, that the presentation of the survey by 
Harris chairman Humphrey Taylor, who is here with us today and 
that he presented earlier at the National Press Club, be 
appended to my remarks and placed in the record.
    Mr. Burton. Without objection, so ordered.
    Mr. Reich. Thank you very much, Mr. Chairman. My 
distinguished colleagues on the panel will comment on the 
implications of the Harris survey findings.
    NOD board member Robert David Hall is known to America as a 
lead member of the Nation's top-rated television show, CSI: 
Crime Scene Investigation. David, who is a double amputee, has 
traveled from Hollywood to appear before you today, and we are 
grateful to him.
    He will be followed by Peter Blanck, also a member of the 
board of directors of the National Organization on Disability, 
and a professor at the University of Iowa law school, as well 
as a director of its disability law center. He has published 
and spoken widely on the Americans with Disabilities Act.
    Again, Mr. Chairman, I would like to commend you and the 
House Government Reform Subcommittee on Human Rights and 
Wellness for recognizing the 54 million Americans with 
disabilities who are disadvantaged and discriminated against. 
You are performing a vital service by placing disabilities 
squarely on the human rights agenda. As I had the opportunity 
to point out recently in testimony before Congressman Tom 
Lantos' Human Rights Caucus, citizens with disabilities, like 
our half-billion counterparts worldwide, are the poorest, least 
educated, and the most discriminated against people on our 
planet. Is this not a human rights disgrace? We want to 
participate fully and contribute to society just like everyone 
else. Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much. We appreciate your 
testimony and will continue to work to see if we can't make 
things a heck of a lot better than they are right now.
    [The prepared statement of Mr. Reich follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.040
    
    [GRAPHIC] [TIFF OMITTED] T7397.041
    
    [GRAPHIC] [TIFF OMITTED] T7397.042
    
    [GRAPHIC] [TIFF OMITTED] T7397.043
    
    [GRAPHIC] [TIFF OMITTED] T7397.044
    
    [GRAPHIC] [TIFF OMITTED] T7397.045
    
    [GRAPHIC] [TIFF OMITTED] T7397.046
    
    [GRAPHIC] [TIFF OMITTED] T7397.047
    
    [GRAPHIC] [TIFF OMITTED] T7397.048
    
    [GRAPHIC] [TIFF OMITTED] T7397.049
    
    [GRAPHIC] [TIFF OMITTED] T7397.050
    
    [GRAPHIC] [TIFF OMITTED] T7397.051
    
    [GRAPHIC] [TIFF OMITTED] T7397.052
    
    [GRAPHIC] [TIFF OMITTED] T7397.053
    
    [GRAPHIC] [TIFF OMITTED] T7397.054
    
    [GRAPHIC] [TIFF OMITTED] T7397.055
    
    [GRAPHIC] [TIFF OMITTED] T7397.056
    
    [GRAPHIC] [TIFF OMITTED] T7397.057
    
    [GRAPHIC] [TIFF OMITTED] T7397.058
    
    [GRAPHIC] [TIFF OMITTED] T7397.059
    
    [GRAPHIC] [TIFF OMITTED] T7397.060
    
    [GRAPHIC] [TIFF OMITTED] T7397.061
    
    [GRAPHIC] [TIFF OMITTED] T7397.062
    
    [GRAPHIC] [TIFF OMITTED] T7397.063
    
    Mr. Burton. Mr. Register.
    Mr. Register. Thank you, Mr. Chairman and Congresswoman 
Watson. It is great to see you again. Good afternoon, and thank 
you for this time to address you today.
    My name is John Register, and I am the director of the 
Paralympic Academy, a national outreach program that enables 
children with physical disabilities to become more active in 
life.
    Before I lost my leg in a freak hurdling accident, I was a 
three-time All American and a graduate of the University of 
Arkansas. I twice went to the Olympic trials. In 1988, I went 
as a 110-meter high hurdler; and in 1992, I went as a 400-meter 
hurdler. I was also a soldier in the U.S. Army.
    In 1988, I went through with the hurdle, and I dislocated 
my knee and severed my artery, and at that time had to really 
look at life from a different point of view, from a different 
perspective, and challenge some of the attitudes that I had 
myself.
    In the hospital room I remember one of the things I 
remembered was my wife and understanding how important it was 
for me to think of who I was at that moment in time. Was I 
still a husband? Was I still a father? Was I still a son to my 
dad? Was I still a son to my own mother? And most importantly, 
as a soldier in the U.S. Army, was I still going to be 
gainfully employed?
    And some of the things I was thinking about really caused 
an impact on my life, and I began to think of some of the 
outlooks that we see. And I think what I was thinking about 
then and what I think about now is of the testimony that we 
have heard. It looks like a dismal picture, and 75 percent of 
children with physical disabilities in the United States do not 
participate in physical education programs at school or health 
and wellness programs in their communities. Seventy-five 
percent of people with disabilities of working age are 
unemployed, as we have heard. And 56 percent of people with 
disabilities get no physical activity whatsoever.
    And per capita health care costs are four times greater for 
people with disabilities than for those without. People with 
disabilities have high rates of chronic conditions such as 
diabetes, depression, high blood pressure and obesity.
    When I was a long jumper at the University of Arkansas and 
with one leg taking the silver medal, I jumped the sum of a 
two-lane highway, 27 feet. With one leg, taking the silver 
medal at the Paralympic Games, I jumped half that distance. So 
I guess half a leg, half the distance.
    I have seen personally the impact on health and wellness 
and how that transcends to other aspects of life. The 
attitudinal issues regarding disability are still a major 
barrier to change. As a former Olympic-level athlete and 
current Paralympic athlete, I have seen the benefits of the 
Olympic and Paralympic programs and their positive impact on 
attitudinal barriers. We must remove the barriers to 
independent living, community integration and employment.
    For example, Federal disability benefits programs assume a 
person's ability to return to work or live independently is 
limited. And this is in my situation. I was on my way to 
officer candidate school and had to stop my progression to be a 
lifer in the U.S. Army because of my physical limitation, 
partly because of governmental and partly because of my own 
limitations I was placing on myself.
    But I think we see with the Paralympic movement how great 
one's ability can be, as testimony is heard today. The U.S. 
Olympic Committee, through its Paralympic Division, is 
committed to addressing quality-of-life issues for people with 
disabilities through the Paralympic program. As a program 
director, I understand the role that the U.S. Olympic Committee 
can play in addressing health and wellness issues and 
attitudinal barriers.
    The USOC is working with community-based organizations to 
deliver programs that expand participation by people with 
disabilities in health and wellness programs and increase 
awareness and resources for these programs. This program is 
known as the Paralympic Academy, and the key objectives of the 
Paralympic Academy are to enhance and increase opportunities 
for people with disabilities, develop a national message 
concerning persons with disabilities, and provide incentives 
and recognition for individuals and programs that have impact 
on all 50 States.
    It provides a cost-effective preventive health and wellness 
program in the 50 States, and we will honor in this year and 
every year subsequently a select group of children with 
physical disabilities and coaches from all 50 States at the 
National Paralympic Academy. This year we are selecting six 
children, our pilot program, that will attend the games in 
Athens, Greece, and we will be leaving on September 14th to 
attend those games. Truly that will inspire those children once 
they see that.
    The U.S. Olympic Committee would like to become a stronger 
partner in developing and implementing cohesive programs with 
the Congress, Federal agencies and the White House; to secure 
legislative amendments and ideas to fund a research study 
quantifying how involvement in health and wellness programs can 
impact the achievement levels in children with physical 
disabilities; engage congressional leadership in supporting 
adapt sports programs in your districts; and reorganizing and 
creating awareness of constituents who are delivering and 
participating in the health and wellness programs.
    So today, I thank you very much for this opportunity to 
testify before your subcommittee. The U.S. Olympic Committee 
looks forward to working with Congress to expand the 
participation and contribution of people with disabilities in 
this country. Thank you.
    [The prepared statement of Mr. Register follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.064
    
    [GRAPHIC] [TIFF OMITTED] T7397.065
    
    [GRAPHIC] [TIFF OMITTED] T7397.066
    
    Mr. Burton. How far did you say you could go with just one?
    Mr. Register. One leg, I jumped 18 feet, 4 inches.
    Mr. Burton. That is pretty good.
    Mr. Register. I'm that one-legged man in that butt-kicking 
contest.
    Mr. Burton. It is a heck of a lot further than I can, and I 
don't have those limitations. But then I am only 29 years old.
    Mr. Hall, when I was 20 years old, I sent a picture of 
myself to Walt Disney Studios, and they haven't responded. 
Could you call them?
    Mr. Hall. I'll talk to Walt. Oops.
    Mr. Burton. Mr. Hall, you are recognized.
    Mr. Hall. Thank you very much. Good afternoon, 
Representative Burton, Chairperson Burton, and Ms. Watson. I 
knew you for so many years as Senator Watson, it's a great 
honor to speak to you as Representative Watson, so thank you.
    I am Robert David Hall, and you have heard that I play Dr. 
Robbins on CSI. More importantly to these proceedings, I'm here 
as a new board member of the National Organization on 
Disability, and I guess most importantly I'm one of the 54 
million Americans with a disability.
    And with two legs and a pole, I only went 13 feet, so I'm 
looking at this man in awe.
    It's an honor to speak before you today. I grew up here in 
Washington, and it is very nice to come home.
    I'm especially grateful for the opportunity to draw 
attention to the National Organization on Disability/Harris 
Survey of Americans with Disabilities. To many of us who 
identify ourselves as people with disabilities, the NOD/Harris 
survey is the gold standard of surveys. I believe it is an 
accurate snapshot of what it is like to live as a disabled.
    Now, I'm not a statistician or professor or pollster, but I 
have learned over the years from the various committees and 
groups that I belong to that numbers and statistics are 
important. We have to measure because that is what dictates 
what action is taken on behalf of any group.
    And while others joining me today--and Alan--can speak a 
little bit more accurately on the specifics of this very 
important survey, I would like to speak briefly about my 
experience as a disability advocate and hands-on volunteer with 
burn victims and recent amputees.
    I'd like to paint a picture of myself, of course, as a 
selfless humanitarian, but the truth is whatever advocacy or 
volunteer work I have been involved in has given me back far 
more than I have ever invested. Twenty-six years ago I was 
badly burned when an 18-wheel truck ran over my car on a 
California freeway. My gas tank exploded, and I was burned over 
65 percent of my body. I spent months in a hospital burn ward, 
and I had both my legs amputated.
    Now, following that trauma, I concluded that I am not 
exceptionally brave, but I am ambitious. I wanted a life, and 
as an actor once told me, if you are going to pray for 
something, be specific. Use lots of adjectives. I wanted not an 
average life, but something out of the ordinary. I wanted to 
succeed, and I didn't want disability or prejudice to stand in 
my way.
    Some people pitied me, and some helped me, especially my 
family and friends. I also helped myself quite a bit. I learned 
to use assistive technology, prosthetic limbs, hand controls 
for my car. I reentered the work force, and I began to face 
certain obstacles that many people with disabilities encounter. 
I am a college graduate, by the way, as are many people with 
disabilities. I faced accessibility issues, health care 
concerns big time, and attitudinal barriers. That was foremost 
among them.
    I believe I have overcome many of these challenges, but I 
didn't do it alone. Along the way many other people with 
disabilities have fought long and hard to improve life for 
their peers. From my own experience, one thing I know very well 
is the cost of health care with disabilities and how 
particularly important good health care is to successfully 
stabilizing a disability so a person can make the most out of 
their life.
    This is why one section of the NOD/Harris Survey of 
Americans With Disabilities that is being released today, the 
section on health care, causes me some particular concern for 
our community. Twenty-six percent of people with disabilities, 
as you have heard already, report not filling a prescription in 
the last year due to cost. Twenty-eight percent report putting 
off needed health care last year due to cost. Cost has also 
caused 23 percent of people with disabilities to bypass a 
doctor's recommendations, compared to only 9 percent of the 
nondisabled population. About a tenth of people with 
disabilities say they went without needed physical or speech 
therapy or mental health service last year.
    It is no surprise, then, that the survey also finds people 
with disabilities have a greater fear of losing their 
independence. Thirty-four percent fear having to go into a 
nursing home. I know many folks who know that it is cheaper to 
have an attendant than to go into a nursing home. About half 
all Americans with disabilities fear they will not be able to 
take care of themselves or will become a burden to their 
families. That's twice as great a rate of concern as for other 
Americans.
    People with disabilities are more worried about losing 
their health insurance. Now, I'm very aware--I serve on a 
couple of boards for the Screen Actors Guild--the cost of 
health care is a problem to anybody in this Nation of ours. It 
is especially of concern to people with disabilities.
    The more severe the disability, the more intense the 
concern is. For people with severe disabilities, especially 
those who are not independently wealthy, independence is a 
tenuous asset if it has not already been lost. The Supreme 
Court's Olmstead Commission, which had its fifth anniversary 
this Tuesday, and President Bush's Olmstead order have helped 
us. These orders built on the rights that were secured by the 
Americans with Disabilities Act passed by President Bush, 
Senior, 14 years ago. And this body, I should say, not by 
President Bush.
    The ADA has been a milestone piece of legislation bringing 
national attention to our concerns. And I commend all the 
legislators and activists who made it possible, who made 
possible its enactment and its enforcement.
    NOD, by the way, currently supports another piece of 
legislation that is pending: The Medicaid Community Attendant 
Services and Support Act, which I know you are aware of, 
MiCASSA. We believe that it will do much more to ensure freedom 
for Americans with disabilities and their families, and I hope 
these NOD/Harris survey findings will help all of our 
legislators to understand how important this issue is for those 
of us who are Americans with disabilities.
    When I speak or visit with people that are newly disabled, 
who had have just joined the disability community, I become 
reenergized, and I had also become reconcerned--on a recent 
visit with injured soldiers at Walter Reed Hospital, I was very 
pleased to see that these young men are receiving first-class 
medical care, and they are wearing the same expensive 
electronic prosthetics that I am, and I hope you are, too. 
Their spirit, by and large, is extremely positive, and our 
country is standing by these soldiers by providing them with 
the assistive technologies that is going to help them maximize 
their potential.
    But I am also aware that they have a different life ahead 
of them. Whether you are a decorated war veteran or just an 
average citizen with a disability, you have a gauntlet to run, 
and as the Harris survey shows, for many, cost comes between 
them and the technologies they need. The benefits of assistive 
technology will not be fully realized as long as cost is a 
factor keeping people with disabilities from the technologies 
and devices that will help them lead fuller lives.
    And then, of course, depending on the severity and time of 
disability, one has some doors open, and certain other doors 
close. This NOD/Harris survey does a good job of pointing out 
the societal problems and highlights the real gaps we face as 
disabled citizens. And in fairness--I want to keep this close 
to the 5 minutes that Representative Burton asked--whether we 
are labeled severely, moderately, or slightly disabled, no 
matter what our mental, physical, sensory or psychiatric 
disability may be, the bottom line, for me anyway, is that 
there remains discrimination against people who are perceived 
to be different.
    I became involved in disability advocacy for several 
reasons. I am a person with disability. I faced other obstacles 
pursuing my career by--mainly because I think it is a colossal 
waste to exclude people from contributing to society based on 
their difference. I believe that with all my heart.
    I mentioned earlier that I grew up in D.C. I'm a baseball 
fan. I've got a Washington Senators hat from 1959 on my 
bookshelf. I pray you will get a team soon. I'd like it in the 
inner city, but just have a Washington Senators. The time I 
left was the year Calvin Griffith took them to Minnesota, so 
this town has a big part of my soul. I love baseball because it 
is a lot like life. They tend to do things the way they have 
always done them, and they revere tradition.
    In his wonderful book, Moneyball, the author Michael Lewis 
talks about the great unorthodox style used by Oakland 
Athletics general manager Billy Beane. Rather than relying 
strictly on old-school scouting reports and general overall 
physical impressions, Billy Beane selects his ballplayers on 
the basis of two very specific statistical events. It's called 
sabermetrics, and they want two things out of their 
ballplayers. Do you get on base? Can you get people home who 
are there on base? And he doesn't look for his talent the 
traditional way. You have to do those two things to be a 
ballplayer on the Oakland A's. You must perform this way.
    The author Michael Lewis writes: The inability to envision 
a certain kind of person doing a certain kind of thing because 
you have never seen someone who looks like him do it before is 
not just a vice. It's a luxury. What begins as a failure of the 
imagination ends as a market inefficiency: When you rule out an 
entire class of people from doing a job simply by their 
appearance, you are less likely to find the best person for the 
job.
    And I believe that. You are less likely to find the best 
person for the job. I'm playing the coroner on CSI, the No. 1 
show around the world, because a couple of enlightened 
producers and one network executive saw past my disability and 
focused on my skills as an actor. In Hollywood when I started, 
they were afraid disabled people would slow the production 
down. That they couldn't learn their lines, blah, blah, blah, 
blah. And it is a silly business to get into unless you are an 
actor, unless you really love it and are willing to jump off a 
cliff.
    This issue is so much bigger than my minuscule problems. 
The NOD/Harris survey indicates there is a large gap in 
employment between college graduates who do and do not have 
disabilities. I think that is a failure of imagination. But I 
think a greater number of future doctors, lawyers, CEOs, and 
leaders of our country can and must come from the ranks of 
Americans with disabilities. Hiring and promoting people with 
disabilities is not just the right thing to do, it's the smart 
thing to do, and it's good business.
    I'm aware that change takes time. I'm also aware that great 
things start in rooms just like these, and I thank you so much 
for your time.
    Mr. Burton. Thank you for that testimony. It is very, very 
effective and helpful.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.067
    
    [GRAPHIC] [TIFF OMITTED] T7397.068
    
    [GRAPHIC] [TIFF OMITTED] T7397.069
    
    [GRAPHIC] [TIFF OMITTED] T7397.070
    
    [GRAPHIC] [TIFF OMITTED] T7397.071
    
    [GRAPHIC] [TIFF OMITTED] T7397.072
    
    Mr. Burton. I might take issue with one thing you said. You 
said that we ought to get the Washington Senators back. One of 
the reasons that we lost the Washington Senators is because 
there is only 100 of them. There are 435 of us. It should be 
called the ``Washington Representatives.''
    Mr. Hall. Well, they were called the Nationals at one time, 
so maybe we can fix that.
    Mr. Burton. Maybe we can fix this.
    Mr. Blanck.
    Mr. Blanck. Thank you, Mr. Chairman, for the honor to 
address this committee. And I will be brief.
    As a professor, I do--I teach sometimes 70 law students in 
a course on Federal disability law every year, and we get these 
course evaluations. And I got one back that said: If I had 1 
hour to live, I would spend it in your class. Feeling proud 
about that, I took it home to my wife, and she said, what is 
that asterisk that I see over here? And in big print it said: 
Because, Professor Blanck, your class seems like an eternity.
    So I will be brief, unlike my usual style.
    I want to make two central points today among the many that 
have been talked about today, and they focus on meaningful 
access to employment, what we mean by that, and economic 
independence for people with disabilities, both areas that are 
studied in the Harris poll, both areas in which I have done 
some work and others have as well. So I won't belabor that 
point. But I wanted to give you highlights of this area.
    I think it is very relevant to the tax discussion we were 
having earlier. As you know, we now have in place in a 
comprehensive work force system which the Department of Labor 
oversees, the Employment and Training Administration oversees, 
and a core component of that system is what is called the one-
stop centers. And I want to report to you today some 
encouraging news from the Harris poll about those one-stop 
centers.
    In fact, almost half of the people polled with disabilities 
now report being aware of those one-stop centers and are 
beginning to use them. This is a particularly encouraging 
result, particularly given the high rates of unemployment we 
have been talking about and the need to present opportunities 
for the many, many qualified individuals with disabilities who 
want to work.
    There are other important things going on in the Department 
of Labor. For example, in partnership with the Social Security 
Administration, they now have a Disability Program Navigator 
individual who creates these links among agencies for persons 
with disabilities to get meaningful employment. And the Harris 
poll, again, shows that expanding these opportunities, these 
meaningful opportunities, for individuals to have work, to 
train, to engage with employers is really needed.
    Now, I'm skipping over some of my remarks, but this tax 
area that you mentioned is crucial. It is a central area for 
enhancing the employment and the integration into life for 
persons with disabilities, and the 2004 Harris poll 
unfortunately finds that only 1 in 10 people use these Federal 
tax credits. So it is very underused. It can go to workplace 
accommodations. It can go to helping small employers hire 
persons with disabilities. It can go to assisting and getting 
personal assistant services. So we have to do a better job of 
thinking about tax policy in this regard.
    Our center in Iowa has been very fortunate because we have 
received a grant from NIDRR in the U.S. Department of Education 
to start an aggressive campaign called TAX FACTS, and we are 
partnering with HHS and the IRS to basically improve the 
financial education of persons with disabilities and their 
families and their employers.
    Now, that goes to the second area which I will touch upon 
briefly. What do we mean by this area of economic independence? 
Well, the reality is you can have all the tax credits you want, 
but if folks are earning $6,000 a year or $12,000 a year, just 
above the poverty level, how are they going to live? What is 
the incentive really to go off Federal programs?
    So what our center and others have done at NOD is we have 
to start thinking about how people with disabilities can 
accumulate assets. We know that there is a strong program for 
people in poverty in place, the AFIA Act of 1998, which is 
financial education and the individual development accounts 
which you guys are familiar with. Yet when we studied this IDA 
program in the NOD/Harris poll, only 6 percent of people with 
disabilities report having an IDA, and that is really a shame 
and astounding, because we know on the TANF rolls, the welfare 
programs, over 50 percent of people who are on those rolls 
either have a disability or have a family member with a 
disability.
    And this lack of financial education and tax savviness 
leads to disparities in banking relationships, in the ability 
to buy stocks and bonds, in homeownership. Even though people 
with disabilities own homes, particularly at older ages, at 
relatively high rates, again the Harris poll shows there are 
terrific disparities in people claiming what every American who 
owns a home claims, and that is the mortgage deduction credit.
    So there needs to be awareness and education about the tax 
programs out there, and I believe that the Harris poll and 
studies like it go a long way toward helping improve the dialog 
about what we mean by economic independence and meaningful 
employment. And I believe that more facts-based evidence is 
required, as Mr. Hall and Mr. Reich have said, to measure the 
outcomes of these programs on the lives of persons with 
disabilities in America.
    And I am under my time, so I will be very unprofessorial 
and conclude there. Thank you.
    Mr. Burton. Thank you very much, Doctor. We appreciate your 
comments.
    [The prepared statement of Mr. Blanck follows:]

    [GRAPHIC] [TIFF OMITTED] T7397.073
    
    [GRAPHIC] [TIFF OMITTED] T7397.074
    
    [GRAPHIC] [TIFF OMITTED] T7397.075
    
    [GRAPHIC] [TIFF OMITTED] T7397.076
    
    [GRAPHIC] [TIFF OMITTED] T7397.077
    
    [GRAPHIC] [TIFF OMITTED] T7397.078
    
    [GRAPHIC] [TIFF OMITTED] T7397.079
    
    [GRAPHIC] [TIFF OMITTED] T7397.080
    
    [GRAPHIC] [TIFF OMITTED] T7397.081
    
    [GRAPHIC] [TIFF OMITTED] T7397.082
    
    [GRAPHIC] [TIFF OMITTED] T7397.083
    
    [GRAPHIC] [TIFF OMITTED] T7397.084
    
    [GRAPHIC] [TIFF OMITTED] T7397.085
    
    [GRAPHIC] [TIFF OMITTED] T7397.086
    
    [GRAPHIC] [TIFF OMITTED] T7397.087
    
    [GRAPHIC] [TIFF OMITTED] T7397.088
    
    [GRAPHIC] [TIFF OMITTED] T7397.089
    
    [GRAPHIC] [TIFF OMITTED] T7397.090
    
    [GRAPHIC] [TIFF OMITTED] T7397.091
    
    Mr. Burton. One thing you mentioned in your statement is a 
number of government agencies, Health and Human Services, 
Department of Education, and others, that can and do help in 
some of these areas. You did not mention the U.S. Chamber of 
Commerce. Has anybody thought about talking to the Chamber of 
Commerce that represents business and industry all across this 
country about the possibility of tax incentives for them to 
hire the disabled and get the Chamber behind this sort of 
thing? Because the Chamber is a very powerful lobby here in 
Washington and in the States, and it seems to me that in 
addition to getting governmental entities like Health and Human 
Services and the Department of Education interested in positive 
changes, getting the Chamber involved would be very positive.
    And I really believe that they would buy into this sort of 
thing, because they and the people that they represent realize 
the benefit of tax credits. I want to tell you, if you want to 
talk to businessman--and I was one once a long time ago--when 
you start talking about a way to get a good employee and get a 
tax break at the same time, I would jump all over that. I think 
most business and industry people would. And if your 
organizations would reach out to the Chamber of Commerce and 
talk to them about it, it might be a very positive thing and 
have a positive result. And I would be very happy, and I think 
Ms. Watson would probably as well, to work with you toward that 
goal.
    Mr. Blanck. If I may respond to that briefly. We have, in 
fact, worked with the Chamber, and I have spoken there. In Iowa 
we have worked with the legislature to pass a tax credit for 
small businesses to hire employees with disabilities, and the 
legislature set aside a subsidy of half a million dollars or 
so. Iowa is relatively small compared to some of your States. 
And we're excited about that we need your help and ideas. Do 
you know how many employers after year one claimed that tax 
credit? Three. So we're doing something wrong. The money is 
there, and my sense is that we need your help to make these 
programs less complicated and more accessible so small 
businesses don't have to spend a lot of time and paperwork on 
this stuff.
    Mr. Burton. There is no question about that. The paperwork 
scares the dickens out of a lot of businesspeople. But I 
believe a lot of businesspeople and industry people are not 
aware of some of these programs, and that is why I was talking 
about the Chamber of Commerce. They do an awful lot of 
education work with business and industry, and I think if 
business and industry was aware of this to a greater degree, 
that might be beneficial.
    Mr. Blanck. Good point. Thank you.
    Mr. Burton. I want to ask you a question about being an 
actor. All politicians have a latent desire to, you know--have 
you ever noticed how many movies we have Senators and 
Congressmen walking on, and they stumble all over their dialog? 
I don't know how they ever got elected, but nevertheless you 
see them on all of these shows.
    But I want to ask you a question. As a person with 
disability, you have 60 percent burns over your body, and you 
lost both of your legs, and you had a terrible time in 
recovery. How difficult was it to get employment in a very 
competitive field after having gone through that?
    Mr. Hall. Well, thanks for asking. By the way, I feel the 
same way being on your turf that you might on mine. I'm 
completely awed and honored to be here, and having grown up in 
D.C., I am thinking about of the Godfather and Michael Corleone 
going: We run a respectable business here.
    I was fortunate that I was a wild child. I worked as a 
musician in my twenties, and at the time I was injured, I was 
working as a disk jockey at a radio station, and this was 
before anybody knew about accessibility. So after I spent my 
months in the hospital, I was burning with a desire to get back 
to work and to be a human being again.
    That is something people with disabilities--and all 
people--share. We want to be productive people. I loved my job 
working on the radio, up at 5 a.m. Fortunately, I was able to 
do my job in a wheelchair just as easily. I had to roll up to 
the console, put my headphones on--tells you how long ago it 
was--start spinning the records, and put the CDs in.
    And radio is magical. It is just you and one person 
listening to you in the dark. And I did quite well at it. But 
as I started to heal and grow and tried to do other jobs at 
other stations, they were not accessible to me physically. I 
couldn't go to the bathroom there. There were a lot of 
problems.
    Many places had never had a disabled entertainer, a 
disabled person work with them. So I was the first to be 
working here or working on this TV show or that show. They did 
not know what to do with me, so my job was mainly making able-
bodied people feel comfortable. And I'm past that now.
    You know, I think that if we have a talent, an ability, and 
it is something that society needs, people with disabilities 
have the same right to the same dreams as anybody else. You 
know, we have plenty of college graduates who are disabled. We 
have just got to get them job interviews; and not just any job 
interview, we need to get them the same quality job interviews 
that Harvard kids and Princeton kids. I care about--you know, I 
was not an overachiever myself, but I care about the C 
students. We have C students running the country.
    But I care about the--no, I'm serious. You know college 
degrees, with due respect to Peter, who I met and enjoy 
immensely already, we need to make sure that people that can 
contribute who have disabilities get that opportunity to work. 
But we need to make sure that the excellent--you know, that the 
A-plus students who are disabled are moving into the highest 
echelons that they can. That they don't just say, gee, I'd like 
to be a lawyer. They say, I would like to be a lawyer at a top 
Washington, DC, law firm. You know, this competitiveness is 
what gets you ahead. And the more people with disabilities we 
have in higher positions and spread out across the country, the 
faster this stuff is going to change, in my opinion.
    Mr. Burton. I think in summary you were very, very 
determined, and you never gave up, no matter what happened.
    Mr. Hall. Well, neither did you, I mean.
    Mr. Burton. I know, but you overcame some severe 
disabilities, and that is very admirable, but that is a quality 
that ought to be communicated to everybody, but in particular 
people with disabilities right now because that determination 
really paid off for you.
    How about you, Mr. Register? You had a tough time.
    Mr. Register.
    Mr. Register. I think for myself it was a very kind of 
emotional time for me, and I think with my colleague Mr. Hall 
here as well. But when you are a world-class athlete, and you 
have an injury of that magnitude 2 years prior to the 
culmination of your whole life, so to speak, it really can be 
devastating. And I think for myself it was the family support 
that I had that really helped carry me through, and my faith as 
well.
    But looking forward and kind of now to giving back with the 
Paralympic Academy, one of the things that we are doing is 
trying to inspire others to overcome those disabilities, those 
barriers. And I think some of the things that we see as 
disabilities are because of what we see, and we tend to place 
limitations on persons instead of looking for what is possible.
    And I was doing that with myself, and it wasn't until I was 
at that Paralympic games as a swimmer--figure that one out--but 
I saw a gentleman on the long jump runway doing what I did with 
an artificial limb. And this man came down the long jump 
runway, and everybody was clapping for him, and as he leapt 
into the air, at the apex of his flight, his artificial leg 
flew off. And he landed in the sand here, and his artificial 
leg landed about 3 feet up in front of him. Everybody was 
hushed, because no one had seen that before. I certainly hadn't 
seen that before. As a long jumper in Arkansas, I never thought 
one of my legs would fly off running down the track. And he 
turned to one of the officials, and he said, Now, where you are 
going to measure that from? From right here or from where my 
artificial leg landed up there? And I thought that was an 
awesome paradigm shift to have. And it really challenged me to 
look at what I was limiting myself with.
    And as we move forward with the Paralympic Academy and 
reaching out to these children, we are also developing a 
program that is affecting the lives of our servicemembers who 
are coming back from Afghanistan and Iraq that have physical 
disabilities. We put together a program for them, a wheelchair 
basketball clinic. At first they were very apprehensive about 
that, but when they got in the chair and they saw some of the 
other athletes get in there, and they were banging them around 
a little bit, it was on after that. The disability went totally 
away, and the possibility was present with them. And I think 
even though some of them may never play wheelchair basketball 
again, it was a sense of freedom that I can really do whatever 
I want to put my mind to do, and no one is going to stop me.
    I think I saw an article in the New York Times a couple of 
days ago that called these soldiers tactical athletes. And what 
better way for sport to bring the world together, as we have 
the Olympic and Paralympic Games coming up at the end of the 
summer, to really show what is possible with humankind and that 
everybody is included in that endeavor.
    Mr. Burton. Thank you very much.
    Ms. Watson.
    Ms. Watson. Well, I am just flabbergasted listening to all 
four of you, and certainly listening to Mr. Hall and Mr. 
Register as to how they overcame. And I am a school 
psychologist in my other life as well, and I would like to talk 
to you at another time about what it took emotionally, 
psychological and mentally to overcome and to achieve the 
success that all of you have.
    I just want to tell you about an experience. I was called 
to go over to Walter Reed several months ago by a Micronesian 
family. That is where I was the Ambassador, and they called on 
me to come, and I went to Walter Reed. And thank you, Mr. Hall, 
for mentioning Walter Reed, and Ward 57 is where the wounded 
are and severely wounded.
    When I got to the hospital, the son, 19-year old son, of 
the family was in one of the houses where--the transition 
house. And I took a look, and I immediately warned the house 
mother to watch the mother and the son for suicide, because in 
that culture when a male can't cope, he commits suicide. I had 
five suicides on my watch. One was the President's son. So I 
knew that if they didn't work with them properly, there could 
be suicide.
    He lost an eye, an arm, and both legs and one at the hip, 
and I knew that he could not return home to an island 20,000 
miles away where you go to the hospital to die. So he would 
never be able to return to his native home. He would have to, 
because they just didn't have the facilities there.
    And I knew that we had lots of work to do, Mr. Chair, to 
address the needs of these new amputees and the newly disabled 
to have them fit back in to a normal or traditional life. I 
don't know if we have been able to solve that one yet.
    Someone visited my office and presented to me something 
that looked like a credit card. And she said, I have created 
this credit card that you could use at an airport, and it has a 
chip in and it, and I want to ask you what you know about it. 
It has a chip in it that would identify your medical provider, 
would give your diagnosis, would tell of your handicap; because 
this young lady was in a terrible accident and had a metal rod 
in her leg, and, of course, every time she went through the 
security gate, it went off. It delayed her because she would be 
taken aside, wanded, and then taken to another room because 
they couldn't figure it out. I know you have experienced that 
time and time again.
    Mr. Hall. Anything that gets me through security faster I 
will walk the Hill up and down with you.
    Ms. Watson. And she said it just makes traveling so 
inconvenient that I do very little of it by plane.
    I told her--there is a picture on it. It was just like a 
credit card or a driver's license. And I said, put a thumbprint 
on it, and we will see. It could be used as international 
identification. It could be used as passport. It could be used 
in many different ways, because there is a chip in there that 
gives the pertinent information. In that, with another chip, we 
could give information on--any pertinent information that we 
can. This is something that I see as removing a barrier from 
you. We just have to get a machine there that you can put it 
into and it would say: Go through.
    Mr. Hall. I applaud the security that people are doing and 
the reasons they have to do it, but I'm with you, 
Representative Watson. It's not about unwillingness to go 
through security, but as my wife Judy, who has joined me today, 
can tell you, one time I'll go through security easily because 
somebody recognizes me from the show. The next time I'll go 
through a 20-minute thing where they will want me to take my 
prosthetic legs off and inspect them, and it is quite 
humiliating.
    So it is not just me. I may be an extreme example. I am 
sure John has set a few off in his day, too. And most of the 
time you laugh about it, but there should be some way that all 
people are treated with a certain amount of respect while we 
are doing the security that is necessary in these times.
    Ms. Watson. Mr. Reich in the wheelchair, tell us about your 
experiences.
    Mr. Reich. Well, Mr. Chairman, I feel that our Harris 
survey today presents a rather bleak picture, snapshot, if you 
will, but I just want to say that there has been progress. 
There is progress. We have identified it in several areas. And 
what I have always maintained in 42 years as a person with a 
disability is that if you have to have a disability, America is 
the place to have it.
    Mr. Hall. Amen.
    Mr. Reich. I have felt very fortunate, of course. I had a 
family of 4 children under 6 at the time of my injury. I had my 
education actually with three master's degrees, and I was an 
All American javelin thrower and All Ivy halfback in football. 
And I had a very--I felt a very beautiful future ahead of me.
    But I came home from the hospital, and thanks to my wife 
and family and friends and all the people who have been 
supportive over the years, it has been possible to make a life 
that has been very rewarding.
    And I would say that, you know, we can take the kind of 
ideas you have expressed today, I think they are terrific, and 
I am encouraged by what you suggested and challenged, if you 
will, in the whole idea of providing incentives. That is what 
America is all about. Leadership is--the assumption of 
leadership in this country. When you take those ideas, and I 
intend to--and we can cast those about and make known some of 
the wonderful programs that are out there. We didn't even talk 
about the Small Business Administration, the Veterans 
Administration. There are programs. The problem is nobody knows 
it. And we can--and sure, we can harness the Chamber of 
Commerce, the National Association of Manufacturers, the AARP, 
50 other major associations, get the word out there, get it 
with a little encouragement, get the White House and the 
President's New Freedom Initiative behind this, and really stop 
talking just about what the government can do, but what the 
private sector can do, what the American people can do and want 
to do and will do if given the ideas, given the encouragement, 
and if shown the way.
    So I think I am very proud that we have been able to 
provide some guidelines, suggest some problem areas, present 
some challenges, and I suggest that we, the American people, 
need bow our heads to no one when it comes to disability. We 
are at the forefront. We started, initiated the whole United 
Nations Initiative on Disability way back in the 1970's that is 
continuing to have a radiating impact around the world. And we 
have more to present as a beacon of hope for all mankind. So 
thank God we're Americans.
    Mr. Burton. I didn't know you were a javelin thrower at one 
time. I've been a lifetime javelin catcher.
    Mr. Reich. That can be dangerous.
    Mr. Burton. Ms. Watson, do you have any more questions?
    I just want to thank all of you for being here today. I see 
a lot of people in the audience who are suffering from 
disabilities as well. I want you to know that this hearing will 
not be the end of government's looking into this. Ms. Watson 
and I and others who were here earlier today will work on 
initiatives to try to expand the help we can give to people 
with disabilities so that they can have a better quality of 
life and maybe help some of them find some real success in 
their lives that they haven't realized so far. And with that, 
this. I'm going to watch CSI, and if you ever need a walk-on, 
call me.
    Ms. Watson. And I'm going to go to the Olympics.
    Mr. Burton. We stand adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
